                                  UNITED STATES DEPARTMENT OF EDUCATION
                                                        OFFICE OF INSPECTOR GENERAL

                                                                                                                  The Inspector General

                                                                                      September 25, 2007

Memorandum
TO:                  Ray Simon
                     Deputy Secretary


FROM:                John P. Higgins, Jr. /s/

SUBJECT:             Final Inspection Report
                     Inspection of Active Congressional Earmarks in Fiscal Year 2005
                     Control Number ED-OIG/I13H0004


This final inspection report presents the results of our Inspection of the Department of
Education’s Active Congressional Earmarks in Fiscal Year (FY) 2005.


                                                      BACKGROUND

Congressional earmarks are funds provided by Congress for projects or programs where the
congressional direction is included in bill or report language. The Department is required to
ensure that recipients of earmark funds use them in accordance with congressional intent, and
applicable laws and regulations.

Budget Service in the Office of Planning, Evaluation, and Policy Development (OPEPD) reviews
congressional bills and report language and then provides a list of the earmarks to the appropriate
Department program office. Budget Service works with the program offices and the Office of
the General Counsel (OGC) to ensure that the intended recipients are located and the
congressional language is clearly understood.

Once the program offices receive the list of earmarks from Budget Service, the offices assign
individual earmarks to program staff. The intended earmark recipient must submit an application
through the program office. Because congressional earmarks do not result from formal
solicitations for proposals, the application process is non-competitive. The assigned program
staff reviews the applications to ensure that the earmark funds are proposed to be used for the
purpose stated by Congress in the legislation. Once the application meets the conditions set by
Congress, the program office approves the application and the earmarks are funded. Program
staff is responsible for monitoring these earmarks.

The two programs that administer the majority of congressional earmarks are the Fund for the
Improvement of Postsecondary Education (FIPSE) within the Office of Postsecondary Education


 The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                   excellence and ensuring equal access.
(OPE) and the Fund for the Improvement of Education (FIE) within the Office of Innovation and
Improvement (OII).


                                      INSPECTION RESULTS

The objectives of our inspection were to determine the (1) total number and cost of congressional
earmarks within the Department in FY 2005, including the cost of the earmark and related costs
such as staff time and administration, (2) adequacy of the oversight conducted on congressional
earmarks in FIPSE and FIE, and (3) overall impact of FIPSE and FIE congressional earmarks on
advancing the primary mission and goals of the Department. We developed these objectives
based on a request from Senator Tom Coburn, received by OIG on January 16, 2007.

Total Number and Cost
We identified 2,594 active earmarks 1 in FY 2005. The total amount drawn down by these
earmark recipients during FY 2005 was $369,655,366.

FY 2005 Active Earmarks by Office/Program
                                           Percentage of
                        Number of Active                                               Percentage of
                                           Total FY 2005      Total Drawn Down
    Office/Program      Earmarks during                                                    Total
                                              Active           During FY 2005
                           FY 2005                                                      Drawdowns
                                            Earmarks
    FIE                            1,234          47.57%             $176,661,780              47.79%
    FIPSE                          1,202          46.34%             $166,932,160              45.16%
    Office of Special
    Education                         80             3.08%              $9,461,960              2.56%
    Programs (OSEP)
    Rehabilitation
    Services
                                      58             2.24%              $6,213,964              1.68%
    Administration
    (RSA)
    Office of
    Elementary and
    Secondary                         20             0.77%            $10,385,502               2.81%
    Education
    (OESE)
    TOTAL                          2,594              100%           $369,655,366                100%

We determined that the total cost associated with administering active earmarks during FY 2005
was $2,137,997. The cost includes but is not limited to pre-award activities, awarding,
monitoring, close-out activities, and archiving. The total amount drawn down and the amount
spent to administer active earmarks during FY 2005 was $371,793,363.




1
  We use “active earmarks” to refer to earmarks that were open at some point during FY 2005 (opened either before
or during FY 2005). Active does not mean that the recipients have been actively drawing down funds; it means only
that the grants were not closed out.


                                                       2
Oversight
The Department experienced a significant increase in the number of congressional earmarks in
FY 2005. In the two programs with the majority of earmarks, FIPSE and FIE, the number of
earmarks increased 42.47 percent and the congressional appropriations related to earmarks rose
28.02 percent. Although the number increased significantly, Congress did not provide the
Department with any additional funding for the costs associated with administering earmarks. In
the Department’s 2005 Management Challenges, OIG reported the Department’s assertion that it
does not have enough staff to administer and properly monitor the recipients of congressional
earmarks.

To answer our second objective we concentrated our work on FIPSE and FIE, because, as shown
in the chart above, active earmarks from FIPSE and FIE represented 93.91 percent of all active
earmarks and 92.95 percent of the total drawdowns in FY 2005. The average amount of staff
time spent on all activities related to administering earmarks (including pre-award activities,
awarding, monitoring, close-out activities, and archiving) in FIPSE and FIE during FY 2005 was
21.10 hours per earmark for the entire fiscal year. We found that the approach toward
monitoring earmarks for the two offices was not consistent.

The earmark coordinator for FIPSE during FY 2005 stated that FIPSE employees do not focus
on monitoring earmarks, but they do review applications (including evaluation plans) closely and
require final reports. He stated that OPE does not have the funds, staff, or encouragement to
monitor earmarks and make site visits. He further stated that the focus of the office is on
monitoring the regular, merit-based projects in FIPSE. Our review of a sample of FIPSE
earmark files supported the coordinator’s statements showing evidence of application review, but
little evidence of ongoing monitoring. FIPSE offers an optional two-hour workshop to train
earmark recipients on grant management. FIPSE’s guidance for earmark recipients states that
the program office’s role in monitoring earmarks is limited to the review of progress and final
reports. During FY 2005, FIPSE had 15 staff members working on 1,202 active earmarks;
therefore staff was unable to dedicate significant time to each grantee. We determined that the
average amount of staff time spent administering earmarks in FIPSE during FY 2005 was
approximately 6 hours per earmark for the entire fiscal year.

The sample of earmark files that we reviewed from FIE showed more evidence of ongoing
monitoring than the files from FIPSE. Some of the earmark files included e-mail
communications between Department staff and grantees and documented phone conversations.
Additionally, OII developed a Monitoring Handbook specifically for FIE earmarks, trained its
staff on the specifics of the handbook, and communicated to its staff an expectation that
earmarks are to be monitored. However, some FIE monitors were responsible for over 100
earmark projects during FY 2005, and therefore, were unable to dedicate significant time to each
grantee. We determined that the average amount of staff time spent administering earmarks in
FIE during FY 2005 was approximately 35 hours per earmark for the entire fiscal year.

Mission and Goals
To determine the overall impact of FIPSE and FIE congressional earmarks on advancing the
primary mission and goals of the Department, we compared the earmark projects’ stated goals




                                               3
and objectives from our sample with the Department’s goals and objectives as outlined in the
Department’s Strategic Plan for 2002-2007. 2

The Strategic Plan describes how the Department intends to accomplish its mission. Using the
goals and objectives in the Strategic Plan as our criteria, we are 90 percent confident that at least
82.7 percent (2,014 grants) of the 2,436 total active earmarks from FIPSE and FIE were aligned
with the Department’s goals and objectives.

While earmarks generally appear to be aligned with the Department’s goals and objectives on an
individual basis, they are not awarded on a competitive basis, and the Department is limited to
evaluating whether the projects conform to the congressional language. The Department does
not assess whether the earmark projects do or do not further the Department’s mission.
According to the Department, the diversity of the earmark projects assigned to the Department
by Congress makes it difficult to measure the collective impact earmark projects have on the
Department’s mission.

Recommendation
We recommend that the Deputy Secretary develop a methodology to ensure that earmark
recipients are held accountable for the Federal funds they receive.


                                 DEPARTMENT COMMENTS

On August 2, 2007, we provided the Department with a copy of our draft report for comment.
We received the Department’s comments to the report on September 24, 2007. The Department
generally concurred with the findings and recommendation of our report, but stated that the
report did not fully recognize the efforts the Department has made in the area of earmarks. The
Department’s response also outlined five steps that the Department is taking in response to our
recommendation. The response from the Department mainly focused on issues in our report
related to FIPSE. It was not our intent to imply that the monitoring in FIE was adequate. The
Department should ensure that all offices that administer earmarks are included in their
corrective action plan. We have summarized the Department’s comments and provided our
responses below. The Department’s response, in its entirety, is attached.

Department Comment
The Department stated that OPE has made significant efforts to ensure that earmark recipients
are accountable for the Federal funds they receive. The Department stated that the report
includes a statement from an OPE staff member that does not accurately reflect OPE’s
monitoring policies and practices, or OPE’s focus on appropriate accountability.

OIG Response
The OPE staff member referenced in the report was the Earmark Coordinator for FIPSE during
FY 2005. We were referred to him by the Deputy Director of FIPSE.

2
 We selected a random sample of 72 congressional earmarks from a total of 2,436 FIPSE and FIE earmark grants.
We examined the full grant files for all 72 of the earmarks.


                                                      4
Department Comment
The Department stated that it takes the responsibility to monitor earmarks appropriately very
seriously. The Department cited recent examples of aggressive monitoring and oversight of two
OPE earmarks, which resulted in designating one grantee as a “high risk” grantee, and only
allowing reimbursement payments to be made to the grantee when proper documentation of
allowable expenditures was provided. The Department delayed the release of payments to the
other earmark grantee until compliance issues were fully addressed.

OIG Response
Neither of the two earmark grants cited by the Department were included as part of our random
sample of 72 earmarks from a total of 2,436 FIPSE and FIE earmark grants and therefore
information related to the monitoring of these two earmark grants was not included in our report.
One of the earmark grants cited by the Department was the subject of a prior OIG audit (ED-
OIG/A09F0020).

Department Comment
The Department stated it appreciated that the report acknowledged the significant increase in the
number of earmarks the Department received in 2005 without additional funding for the costs of
administering earmarks. The Department stated that the report does not adequately characterize
the workload of OPE staff that worked on the 1,202 earmarks nor does it convey the time that the
staff devoted to work on earmarks. The Department further stated that the report does not
convey that the monitoring of earmarks was in addition to staff responsibilities to review
applications and to award and monitor grants made through the regular FIPSE competitive grant
process.

OIG Response
The average staff time spent administering earmarks in FIPSE during FY 2005 was
approximately 6 hours per earmark for the entire fiscal year based on the responses to our survey
of FIPSE staff responsible for administering and monitoring earmarks during FY 2005. We
recognize that the monitoring of earmarks was done in addition to staff responsibilities related to
the regular FIPSE competitive grant process and have included a statement to that effect from the
FIPSE earmark coordinator in the report. Additionally, during our fieldwork, the Deputy
Director of FIPSE informed us that FIPSE did not have a competition for the comprehensive
program in 2005 and as a result staff would not have spent much time making new awards for
the comprehensive program. As a result of the Department’s comment we have clarified that the
“100” projects referenced in the OII section of the report referred to earmark projects.

Department Comment
The Department stated that the report does not recognize the significant efforts that OPE made to
provide support and assistance to earmark grantees at the early stages of the grant process. The
Department stated that in addition to providing earmark grantees written materials on grantee
responsibilities and requirements, OPE holds an orientation workshop each year for in-person
grant management training and hosts a Web page with information specifically for earmark
grantees.




                                                5
OIG Response
We recognize these efforts to provide support and assistance to earmark grantees and have added
language to the report to this effect. We would add that it is important to have ongoing
monitoring to ensure that grantees are complying with the requirements and responsibilities
presented to them in the early stages of the grant process.

Department Comment
The Department stated it was somewhat puzzled by the report’s conclusion that 83 percent of the
earmarks were aligned with the Department’s primary mission and goals and the statement that
the Department does not assess whether the earmarks further the mission of the Department. The
Department noted that it has little discretion in determining whether to fund an earmark or
whether it should require that an earmark be aligned with the Department’s goals and objectives.
The Department stated that it is not clear what purpose such an assessment would serve and what
the benefit would be to advancing the Department’s goals and objectives. The Department also
stated that it believes earmarks are an inefficient use of taxpayer dollars and that, by their very
nature, earmarks limit the ability of the Department to direct funds where they are most needed
to address the Department’s goals, objectives, and priorities and where the funds have the
greatest potential for achieving successful outcomes.

OIG Response
We reported that earmarks are not awarded on a competitive basis and that the Department is
limited to evaluating whether the projects conform to the congressional language. The
Department’s policy position that earmarks are an inefficient use of taxpayer dollars does not
alleviate the responsibility of the Department to hold grantees accountable. We did not
recommend that the Department perform such an assessment of earmarks in our report. Our only
recommendation is that the Department develop a methodology to ensure that earmark recipients
are held accountable for the Federal funds they receive.


                 OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our inspection were to determine the (1) total number and cost of congressional
earmarks within the Department in FY 2005, including the cost of the earmark and related costs
such as staff time and administration, (2) adequacy of the oversight conducted on congressional
earmarks in FIPSE and FIE, and (3) overall impact of FIPSE and FIE congressional earmarks on
advancing the primary mission and goals of the Department.

We began our fieldwork on February 13, 2007. We interviewed Department staff in OII, OPE,
OPEPD, and OGC.

We defined earmarks as specifically identified revenues, often supplemented by other financing
sources, which remain available over time for designated activities, benefits, or purposes.

We requested that the Department provide us an electronic listing of congressional earmarks that
would include:



                                                6
       - All congressional earmarks awarded in FY 2005,
       - All other congressional earmarks active in FY 2005,
       - Award date for each earmark,
       - Amount originally awarded for each earmark, and
       - Amount dispersed during FY 2005 for each earmark.

We attempted to verify the listing against the appropriations language from FY 2005 and found
that the earmarks listed under “Rehabilitation Services and Disability Research” were missing
from the Department’s list. The Department revised its original listing to include these earmarks.
We were then able to verify the revised listing as complete.

To determine staff time and administration costs associated with congressional earmarks during
FY 2005, we requested that RSA, OSEP, FIE, FIPSE, and OESE provide us a listing of all
individuals who were involved with all congressional earmarks that were active in FY 2005,
including earmarks that were awarded in FY 2005 and earmarks from past years that were still
active during FY 2005.

We conducted a survey of these individuals requesting that they provide us with the percentage
of their time that they spent working on congressional earmarks in FY 2005 and their pay grade
and series at the beginning of FY 2005 (October 1, 2004). We asked that their responses include
time spent on activities including but not limited to pre-award, awarding, monitoring,
administering, close-out, and archiving. We had a response rate of 71.94 percent. For
employees who did not respond or were no longer with the Department, we estimated time spent
based on the averaged responses for their respective program offices.

We selected a random sample of 72 congressional earmarks from a total of 2,436 FIPSE and FIE
earmark grants and compared the earmark projects’ stated goals and objectives with the
Department’s goals and objectives as outlined in the U.S. Department of Education’s Strategic
Plan for 2002-2007. We examined the full grant files for all 72 of the earmarks. Based on our
review of earmark recipients’ stated goals and objectives, we concluded that eight of the
earmarks in our sample did not align with at least one of the goals or objectives from the
Department’s Strategic Plan for 2002-2007.

Our inspection was performed in accordance with the 2005 President’s Council on Integrity and
Efficiency Quality Standards for Inspections appropriate to the scope of the inspection described
above.


                            ADMINISTRATIVE MATTERS

An electronic copy of this final inspection report has been provided to your Audit Liaison
Officer. We received your comments, which generally concurred with our findings and
recommendation.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your offices
will be monitored and tracked through the Department’s Audit Accountability and Resolution


                                                7
Tracking System (AARTS). Department policy requires that you enter your final corrective
action plan (CAP) for our review in the automated system within 30 days of the issuance of this
report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

Electronic cc: Morgan Brown, Assistant Deputy Secretary, OII
               Diane Auer Jones, Assistant Secretary, OPE
               Wendy Tada, Chief of Staff, ODS
               Liza Araujo, Audit Liaison, OII
               Dottie Kingsley, Audit Liaison, OPE




                                                8
9
10
11
